December 3, 2020
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-727, Facebook, Inc. v. Perrin Aikens Davis, et al.

Dear Mr. Harris:
I am counsel of record for the Respondent in this case. I hereby seek an extension of the
time to file a response to the petition for certiorari. The response is currently due on December
28, 2020. For the following reasons, I request a 45-day extension to and including February 11,
2021. This request is unopposed by the Petitioner.
I will have principal responsibility for preparing the brief in opposition to the petition.
Because I was only recently retained in this case, my colleagues and I will require additional
time to prepare an adequate response to the petition. Furthermore, we have several upcoming
deadlines and obligations that, in addition to the upcoming holiday season, will prevent us from
devoting adequate time to the response absent an extension. These include:
An amicus brief due in this Court on December 7 (in AMG v. FTC); an opening brief due
in the Ninth Circuit on December 14 (in Moser v. HII); a brief in opposition due in this Court
on December 14 (in CREW v. Trump); a brief in opposition due in this Court on December 16
(in IQVIA v. Mussat); a petition for certiorari due in this Court on December 24 (in Allen v.
Wells Fargo); a reply brief due in the Ninth Circuit on December 24 (in Sponer v. Wells Fargo).
A 45-day extension will allow us to balance these other responsibilities with our obligations in
this case.
Thank you for your attention to this matter.
Sincerely,
Matthew Wessler
Gupta Wessler PLLC
1900 L Street NW, Suite 312
Washington DC, 20036
matt@guptawessler.com
cc: Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

